<html>
<title> - CATHOLICS AND CIVIL SOCIETY IN CHINA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





                  CATHOLICS AND CIVIL SOCIETY IN CHINA

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 17, 2004

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-473                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

JIM LEACH, Iowa, Chairman            CHUCK HAGEL, Nebraska, Co-Chairman
DAVID DREIER, California             CRAIG THOMAS, Wyoming
FRANK WOLF, Virginia                 SAM BROWNBACK, Kansas
JOE PITTS, Pennsylvania              PAT ROBERTS, Kansas
SANDER LEVIN, Michigan               GORDON SMITH, Oregon
MARCY KAPTUR, Ohio                   MAX BAUCUS, Montana
SHERROD BROWN, Ohio                  CARL LEVIN, Michigan
DAVID WU, Oregon                     DIANNE FEINSTEIN, California
                                     BYRON DORGAN, North Dakota

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                    JAMES KELLY, Department of State
                  STEPHEN J. LAW, Department of Labor

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Madsen, Richard, professor of sociology, University of California 
  at San Diego, San Diego, CA....................................     2
Carroll, Sister Janet, program associate, U.S. Catholic China 
  Bureau, South Orange, NJ.......................................     5

                                APPENDIX
                          Prepared Statements

Madsen, Richard..................................................    28
Carroll, Sister Janet............................................    30

 
                  CATHOLICS AND CIVIL SOCIETY IN CHINA

                              ----------                              


                       FRIDAY, SEPTEMBER 17, 2004

                            Congressional-Executive
                                        Commission on China
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 10 
a.m., in room 2515, Rayburn House Office Building, John Foarde 
[staff director] presiding.
    Also present: David Dorman, deputy staff director; Erin 
Mewhirter, office of Grant Aldonas, Under Secretary of Commerce 
for International Trade; Susan Weld, general counsel; and Mark 
Milosch, special advisor.
    Mr. Foarde. Good morning to everyone, and thank you for 
coming to this issues roundtable of the Congressional-Executive 
Commission on China. My name is John Foarde. I am the staff 
director and represent Chairman Jim Leach.
    We will have some other CECC staff, and we hope some 
personal staff from some of our commissioners, coming in due 
course to attend this morning. I would like to thank everybody 
who has come out on this cloudy, rainy day to join us.
    We are here this morning to examine Catholics and civil 
society in China. Most experts agree that Chinese citizens will 
not enjoy substantial religious freedom until they are free to 
form unsupervised religious associations and organizations. 
Between 1949 and 1978, the Chinese Government destroyed China's 
relatively under-developed civil society. But since 1978, the 
Chinese people have 
rebuilt some of the institutions of civil society, despite 
strict government limits.
    The government generally gives little latitude to religious 
believers to form private voluntary associations, but in recent 
years has permitted the formation of a network of Catholic 
social services, while tightening restrictions on Catholics in 
other areas.
    This morning we want to examine recent developments in 
Catholic institutions of civil society in China, and assess in 
what areas there might be some scope for future liberalization, 
or might be the possibility of additional restrictions.
    We have two distinguished panelists to help us this 
morning. Richard Madsen is professor of sociology at the 
University of California at San Diego, and we are grateful for 
him coming all this way to share his expertise with us, and 
Sister Janet Carroll, the program associate with the U.S. 
Catholic China Bureau, who is here on the east coast, but also 
had to travel to Washington to join us, and we are grateful for 
that as well.
    As we have at our roundtables over the last three years, we 
will give each panelist 10 minutes for an opening presentation, 
and then launch a round of questions from the staff panel until 
we either run out of steam or get to 11:30, whichever comes 
first.
    So, without further ado, let me recognize Professor Madsen 
for his presentation, please.

STATEMENT OF RICHARD MADSEN, PROFESSOR OF SOCIOLOGY, UNIVERSITY 
           OF CALIFORNIA AT SAN DIEGO, SAN DIEGO, CA

    Mr. Madsen. It is a great honor for me to speak at this 
roundtable and to have a chance to share what expertise I have 
on the situation of the Catholic Church in China.
    The first thing I would say, very briefly, is that the 
Catholic Church in China in many ways is an extremely vital 
institution. Many people had pretty much given it up for dead 
after the Communists took over in China in 1949, including many 
foreign missionaries who thought that many of their Catholics 
were basically ``rice Christians,'' poorly educated in the 
faith, who would not stand up to the tremendous persecution 
they ended up facing. So it was to the surprise even of 
Catholic missionaries, I think, as well as to secular scholars 
and to other people, to see how, in the 1980s, the church 
rebounded and has become a very dynamic, very vital 
institution.
    The Catholic Church in China is characterized in many 
places by enormous fervent devotion and commitment to the 
faith, sometimes, of course, under daunting obstacles. The 
church is developing new forms of organization of social 
services, as we are going to talk about later, and is ordaining 
a steady stream of new priests; religious sisters are being 
professed; and the numbers of Catholics are steadily, although 
somewhat slowly, growing. There are approximately 12 million 
Catholics in China today.
    At the same time, the church is faced with some severe 
problems. There is a problem of factionalization between the 
so-called underground church and the official church, and also 
problems related to the lack of numbers of new priests that 
would be needed to fill the gap caused by the retirements and 
deaths of an older generation of priests, because there were 
not that many priests ordained in the middle period during the 
repressive Mao Zedong years. So, there is a lack of priests, a 
lack of money, and factionalism.
    Over and above that, there is a problem, I think, with the 
capacity of the church to sometimes adapt itself to the dynamic 
secularizing influences of modernization and of urbanization in 
the coastal areas of China.
    The Catholic Church is strongest in China in the 
countryside, in the hinterlands. In major cities like Shanghai, 
even though the city is a site of a long-lasting Catholic 
community, the number of young people willing to become priests 
and the level of commitment begins to pale in comparison with 
the countryside, because for some reason the way the faith has 
been formulated and organized does not seem to match the 
experience and aspirations of people who are caught up in 
modernizing or urbanizing society. So, these are challenges 
that the Catholic Church faces, daunting challenges.
    But in my written statement, I mentioned that in some 
respects the Catholic Church in China is more dynamic, 
flourishing, and in better shape than, say, the Catholic Church 
in America or Europe, where, by many measures, the Church is in 
somewhat of a decline, reeling from scandal in the United 
States, whereas in China, it is on an upward trajectory, in 
spite of all its problems.
    Comparing the Church in China with the Church in America is 
like comparing apples and oranges. But there is no reason to 
say that the Catholic Church in China is in terrible shape, 
especially in comparison with us. In many ways, it is an 
inspiration to us all.
    The development of the Catholic Church in China is part and 
parcel of very dynamic development of civil society in China. 
The way I defined civil society in my written statement is a 
very simple, basic kind of definition: whenever you have a 
market economy, whenever you have mobility and the capacity of 
people to transcend family and local community, and form new 
kinds of associations, whenever you have these kinds of 
opportunities created by a dynamic market economy, you are 
going to have a civil society. You are going to have all sorts 
of new forms of organizations. And you have this in China.
    The classic problem of western social theory has been how 
you take a civil society, which is an inevitable thing, and 
make sure that this works toward stability, justice, and peace. 
All our great thinkers, from John Locke to Alexis de 
Tocqueville and even to Karl Marx tried to deal with this 
problem. In China, they are wrestling with this problem, too. 
In an earlier period, the basic instinct of the Chinese 
Government was to suppress civil society. The government saw 
this as a fundamental problem. Now, they basically, I think, 
have come to the point where they realize that you cannot 
suppress it. The issue is how they channel it. To do that, they 
are going to have a rule of law. They are going to have to have 
a framework within which a civil society can be set free, but 
also regulated so that it works for the common good.
    The framework through which the Chinese are going to do 
this is inevitably going to be different from the one in our 
society. I gave a talk about civil society, kind of a testimony 
to the Political Consultative Congress of Shanghai, which is a 
quasi-legislative body--I was the first foreigner to do this 
two years ago. After the talk, one of the members came up to me 
and said, ``I think I misunderstood you. It sounded to me like 
you said that in America the laws and the government allow 
groups in civil society to do whatever they want as long as 
they do not hurt anybody, and they make no effort to make sure 
they cohere into the common public good.'' I said, ``That is 
exactly what I said.'' And she said, ``This cannot be.'' This 
was totally outside the orbit of her way of thinking. She 
assumed that the government has the responsibility to make 
these groups work together for the common good.''
    So the fundamental mentality we have at work here is 
different from ours. I think it is very possible that this 
mentality will change, but as China develops a framework for 
civil society, it would probably be more directive and more 
corporatist than we have here. However, I think it may 
eventually allow for a greater degree of flexibility and 
freedom than we have today. So the Catholic Church is part of 
the civil society.
    Because civil society in China is both very active, but 
poorly regulated and poorly protected, because guarantees of 
freedom of association are not truly guaranteed under the law--
there are no rights of association that are firmly guaranteed 
in the law; and because civil society flourishes in an 
ambiguous legal limbo--because of all this, very messy kind of 
tendencies develop. For one thing, groups in civil society 
establish themselves and maintain themselves only through 
sometimes extra-legal means, and even corrupt means, by buying 
off people so as to gain freedom to act. The capacity of such 
groups to organize themselves and to keep going is always 
contingent on very particularistic and complicated kinds of 
events.
    The religious organizations in China are part and parcel of 
this whole situation. So, religious organizations in China lead 
a very perilous kind of existence. There are areas of freedom, 
but they can be arbitrarily taken away. This creates, 
sometimes, paranoid and closed attitudes. Sometimes they get 
involved in complicated, messy sorts of compromises.
    What I would say, therefore, is that religious 
organizations in China, including the Catholic Church, are part 
and parcel of this kind of civil society. You cannot see the 
Church as kind of an island of moral and religious purity in 
the midst of a corrupt, messy society. The Church is part of 
the world. The world is complicated and messy, and the Church 
engages in all that messiness. At the same time, Catholics, 
like other non-Christian people in China, are searching for new 
ways to live a decent life and to serve people in new ways. I 
am sure Sister Janet will talk about all the new Catholic 
organizations that are being created with the social service 
organizations.
    The Catholic Church in China is faced with particular 
challenges that maybe are somewhat special to the Catholic 
Church in comparison, say, with certain kinds of Protestant 
communities. One issue is that the Catholic Church tends to be 
more rooted in local village and family organizations, and has 
a more difficult time transcending these. Another problem is 
that, because of the situation with the Vatican, it is very 
difficult for the Catholic Church to organize itself and speak 
with one voice.
    Because of all this, you cannot have a unified Catholic 
presence, and it would be more difficult to develop large-scale 
civil society organizations, such as Catholic Charities, in 
China. So this makes the Catholic situation in China somewhat 
special, but in general it is part of the overall situation 
about a messy, but emerging, civil society.
    [The prepared statement of Mr. Madsen appears in the 
appendix.]
    Mr. Foarde. Thank you for giving us a good start and a lot 
of food for thought as we go into the question and answer 
session a little later.
    Let us go on. Let me recognize Sister Janet Carroll. Sister 
Janet served as the executive director of the U.S. Catholic 
China Bureau from 1989 to 2003, and continues to serve as a 
program associate. She is widely published on Church and China 
issues, and has been a panelist and lecturer on these subjects, 
and we are delighted to have her with us this morning.
    Please go ahead.

   STATEMENT OF JANET CARROLL, M.M., PROGRAM ASSOCIATE, U.S. 
            CATHOLIC CHINA BUREAU, SOUTH ORANGE, NJ

    Sister Janet Carroll. Thank you, Mr. Foarde. Let me also 
express my gratitude to be able to be here this morning. We 
have been aware of the work of this Commission for several 
years and been in contact previously during the hearings and 
other things that we follow very closely.
    I would like to certainly commend the Commission for that 
work. In the words of your co-chair, Senator Hagel, this idea 
that, as the United States Government and the Government of 
China, we can work closely together for the common good and 
common interest, not only of our own national interests, but 
also for the people. Second, as I have said as a caveat, that 
it is also important for the American people and the Chinese 
people to work together. That is where I think the civil 
society issue is best engaged.
    Professor Madsen has already sketched out the background on 
the Church situation, and the Church, as it struggles forward 
in China today, as it does, indeed, in many lands, our own 
included.
    My experience has always been grounded in my own personal 
experience of having worked in the field, albeit not in China 
proper, but rather in Taiwan, many years in the mid-1950s, 
1960s, and into the 1970s. But that experience of working with 
the people at the grassroots level colors everything I do, and 
even today when I visit China, my interest is always just to be 
with the ordinary folks. I think it is there that the hope lies 
for the future of the Church, indeed, for the future of the 
country.
    I will try to stick more closely to the statement I 
prepared and simply lift up a few aspects of it that perhaps 
will complement what Mr. Madsen has already shared with us. I 
think, as he has indicated, no matter how you construe the 
developments in the last quarter century, the signs of renewed 
opportunities for social services and civil society certainly 
exist. I use these two words interchangeably in the sense that, 
insofar as the Church will organize social services and social 
welfare programs, that is in my view the contribution for the 
moment that the Church will make to civil society. It is always 
important to remember that in China, everything you hear is 
true in one place and in one time, but may not be true in the 
next place and the next time, which makes it difficult 
sometimes for us to deal with all that ambiguity. There are a 
lot of contextual perspectives which we have to bear in mind 
when we are going to look at the situation, and I think Dick 
has already raised some of them.
    But I would just highlight that the cultural and social 
traditions, as they are evolving in China, give an opportunity 
for Christianity, in general--certainly the Catholic Church--to 
also engage in providing new ethical and moral foundations for 
the emergence of a civil society. The civil society has to be 
grounded in these underpinnings. While there is cause for 
concern and caution about the situation, there certainly are 
these unparalleled opportunities which the churches can take. 
Christianity can make an important contribution to a life 
ethic, as a philosophy, but also through the very services that 
the churches can render.
    Many of us would be familiar with the extensive program of 
social services: schools, hospitals, clinics, all manner of 
social ministries, orphanages, and so forth, that the 
missionary church provided in China until the 1950s. Today, of 
course, the local Catholic Church in China has the prerogative 
to establish its own ministries in that regard. I think that, 
given the limited resources, both material resources as well as 
human resources, they are doing an outstanding job in getting 
started. I have left, on the distribution table for people to 
take, four or five samples of so-called Catholic social service 
centers which are already functioning in China today, some of 
them more or less developed. Perhaps the best known one, with 
the most structure, is the Beifang Jinde Center in Hebei 
Province in northern China, about three hours from Beijing. 
They work extensively throughout the country trying to respond 
to rescue and relief needs when there are tragedies like 
flooding and earthquake and other disasters. They are trying to 
make an effort to respond to the HIV/AIDS crisis, and other 
programs of interest, and they are doing quite well.
    There is another center getting under way in the northeast 
of China in the city of Shenyang, organized by the Liaoning 
Diocese. You can read about their programs and what they are 
envisioning, and the perspective they take on engaging in the 
society and in service. I also brought along a copy of a 
newsletter of another very well-established social service 
agency in the diocese of Xi'an in western China, which has 
quite a bit of work underway, spread out very extensively in 
the village areas of Shaanxi Province. I've already brought to 
your attention the well-known Catholic Intelligentsia 
Association of Shanghai. Under a rather archaic title they have 
existed in Shanghai since the mid-1980s--soon after the Church 
there reopened. A small group of Catholic professionals came 
together to offer pro bono services in the fields of legal, 
medical, and social service.
    Another area in which I think the Catholic Church can 
contribute in China, where they are indeed struggling, is to 
look at the culture as it engages with modernity and the whole 
new development of a market economy. How can Christianity 
become a living interlocutor with Chinese culture, and help it 
to reinterpret its history, prepare for the New China that the 
government is seeking to bring into existence? A famous slogan 
that Chinese political leaders use as a challenge to the people 
is ``to create a new spiritual civilization.'' This is our kind 
of religious language, yet it is interesting to hear this kind 
of language coming from the so-called atheistic authorities in 
China. So I would say that the post-1978 People's Republic of 
China, the ``New China,'' already now passing its first quarter 
century of existence, is facing this challenge of creatively 
reinventing its traditional value system and its moral 
categories in order to have new interpretive models. With these 
models, they can not only make sense of their past and find 
common ground in the present for the good of the people, but 
also can move toward the future, which will enable them to play 
their rightful role in the international community.
    Civil society will be an integral part of the 
transformation that is happening in China. It has to be 
structured in a manner consistent with the values, virtues, and 
cultures of that ancient and great civilization. One of the 
things those of us who have tried to engage and work with the 
Chinese churches must remember, and I think it is one of the 
ways you will see organizations working in China, is to give 
priority to the principles of harmony and right relationships 
that are central to the Chinese psyche. Those two elements of 
seeking harmony and the smooth way to go, and of being in right 
relationships, whether it is with the government or one's 
peers, or caring for the needy and the poor in society, have to 
bear great weight in the restructuring of China's civil 
society. It is time, I think, for a new dialogue, not only 
within China, but internationally with China, to move in this 
direction.
    Finally, I would like to speak a little bit about the needs 
that are out there, about how the programs are organized, and 
why these programs have the character that they do when you 
look at the literature.
    There are many needs and many ways that the Church could 
serve if it had the resources, if it had the support and 
assistance from sister churches, and from other organizations 
in the social services sector.
    Before our roundtable this morning, we were talking about 
developments in the field of law. The Chinese welcome and are 
open to work together with those who can assist them in 
preparing their own human resources to meet the goal of 
creating a rule of law.
    In the field of general education, while the churches are 
not yet permitted to sponsor schools as such, a great deal of 
work is being done in the field of informal and supplementary 
education. Similarly, collaborative efforts would be welcome in 
the social and medical fields. I mention the HIV/AIDS pandemic, 
which necessarily needs help from every quarter. The churches 
are already playing a tremendous role--both Catholic and 
Protestant groups--in trying to respond to this crisis, mainly 
by training personnel and collaborating with local health 
bureaus in designing programs.
    I have included in the packet of materials on the 
distribution table for those who may find it of interest, a 
response to some questions that might be asked as we think 
about religiously sponsored social service projects in China. 
How do these organizations function? What kinds of limitations 
do they struggle under?, and so forth.
    I think direct responses are always valuable: verbatim from 
one of the directors of such programs regarding these concerns. 
What sorts of supervision and restrictions that these agencies 
work under simply because they are church sponsored? My 
interluctor noted that strictly speaking, there were no written 
rules that make them any different from other organizations. 
But they indeed are supervised, especially those agencies and 
organizations that try to relate internationally and have 
funding from foreign contacts and foreign personnel coming in 
to assist them with their programs. These are delicate areas, 
and there is a lot of government supervision when a social 
service agency in China functions in that way. Other people may 
ask if it depends on who's in charge? Indeed, it does. My 
source mentioned that, again, harmony and right relationships 
are very important. When there are competent people in both a 
local government ministry as well as in the Church side of the 
organization and they can discuss and agree on common concerns, 
things go well.
    Another question that is asked is, ``What is the primary 
concern that the government might have about these kinds of 
religiously affiliated organizations? ''
    I would say, as the Xi'an director said, that the primary 
concern--and this is something we have certainly not been shy 
about in the past--is that these programs would be used for 
what they would judge to be ulterior purposes. In other words, 
to put it very bluntly, a social service program whose real 
goal was to proselytize or convert people to Christianity 
rather than to just altruistically serve the people. We know 
that, unfortunately, some overly zealous groups use these 
methods. Regrettably, the Chinese Government perceives them as 
detrimental to its interests.
    If I might, just one final comment in terms of what kind of 
restrictions, perhaps, these groups appear to be under. I 
interviewed a young woman doctor who is currently doing her 
studies at Pace University in hospital administration and has 
been working in the diocese in Hebei. She mentioned that, 
coming up now, it appears that there is much stricter control 
in terms of the objectivity of the social services that I 
already alluded to, but more importantly, that standards are 
rising all the time. In the old days, the missionaries could do 
whatever as long as they were doing good deeds. But now it is 
not sufficient that the Church just have a clinic that perhaps 
is not staffed with personnel with high professional standards, 
and does not use up-to-norm methods, pharmaceuticals, or 
clinical tests, and so forth. So she mentioned to me that more 
and more small clinics run by the churches in the countryside 
are being closed because they lack these standards and 
capacities to follow the local norms. She was of the opinion 
that this situation was probably good, because the churches 
need to bring them up to modern standards. In fact, her being 
here finishing her degree in this field is a function of her 
local bishop's concern about having adequately credentialed 
professional staff who will administer these social service 
programs for that diocese.
    Thank you very much for your attention.
    [The prepared statement of Sister Janet Carroll appears in 
the appendix.]
    Mr. Foarde. Sister Janet, thank you very much. Both 
presentations have given us a lot of ideas and concepts to 
discuss. I will let you both rest your voices for a minute 
while I make an administrative announcement or two. The 
Congressional-Executive Commission on China will have a formal 
hearing on Thursday, 
September 23, beginning at 10:30 a.m. in this room, 2255. The 
subject will be the situation in Hong Kong after the 
Legislative Council elections on September 12. We will try to 
take a look at constitutional development and universal 
suffrage in Hong Kong, and what the prospects are for that.
    The Commission will meet in a closed session in this room 
at 10 a.m. on that same day, and so we will not admit people to 
the room until just before the 10:30 hearing begins. But you 
are all welcome to come, and we would very much like to see you 
there.
    The Commission is charged by statute to issue a report each 
year, which may contain recommendations to the President and to 
the Congressional leadership. In keeping with that statutory 
mandate, we will release the annual report for 2004 on Tuesday, 
October 5. The room, I think, will be room 1116 Longworth, but 
please look at the Web site. Of course, we will send out an 
announcement in a couple of weeks to remind people about that 
date and time for the Annual Report press conference.
    Chairman Leach and Co-Chairman Hagel will preside at the 
hearing next week, and also at the press conference to 
introduce the report on October 5.
    With that, let us go to the question and answer session. I 
will exercise the prerogative of the chair to leap right into 
it.
    Our Commission members are very interested in the dynamics 
between the underground Church and the open Church. We wondered 
if communities of underground believers have tried to form any 
voluntary associations or band together to do the sort of 
social service work that is apparently being done in the open 
Church by the groups that Sister Janet and Dick alluded to 
during their presentations. Can you comment on that?
    Mr. Madsen. First of all, I would say they have a 
tremendous, quite sophisticated capacity for organization that 
transcends just local villages and communities. There is an 
underground Catholic bishops conference that gets interrupted 
by the police. Over and above that, if by civil society you 
include all sorts of voluntary organizations, they do lots of 
work in getting the money together to build churches and other 
buildings in places such as Wenzhou. There are all these 
beautiful churches that they have built. Some of them have been 
destroyed recently, but there is the capacity to get themselves 
organized to build the churches and to raise money, sometimes 
from foreign sources. A lot of that kind of activity goes on.
    I think, because they are not officially registered, they 
are under pressure and are more concerned about survival than 
about expanding social services such as works of charity, 
although I think there is a fair amount of work that goes on in 
helping each other in local communities. But they would have a 
difficult time doing so in the formalized way that the official 
Church can do it.
    Mr. Foarde. Useful. Sister Janet, please.
    Sister Janet Carroll. I would also--and Dick, in his own 
paper made a point on this which I would respond also to--say, 
just to clarify that these, these hard-line distinctions that 
we make between underground and open, or whatever terms you 
want to use, registered and unregistered is what I prefer to 
use, are not always useful. None of the activities we have been 
talking about happened without the acquiescence, formal or 
informal, of the local authorities. So in our understanding, 
there is no such thing as things happening that nobody knows 
about.
    However, to address your question, would a church in a 
given city or a countryside area that is not registered--could 
that church start a social service program? Maybe not formally, 
I think, in the sense of having it have a name like Catholic 
Social Service Center of x location, but in fact they are doing 
it. The work is going on.
    More importantly, a lot of these organizations that are 
formally established--and I would say that there are probably 
more than just the four or five that we have illustrated here 
this morning--the people working in them are Catholics who 
belong, across the board, to different communities which choose 
one position or the other. I know, myself, for many of the 
young sisters, for example, that would be doing a lot of this 
ministry, their natural sympathies would be with the 
unregistered communities because their families belong to those 
traditions and that is where they come from. But in terms of 
the objective work they do, they are there working in the 
structures that enable them to do the ministry.
    Mr. Foarde. Thank you. And thank you for bringing up 
another point which I would like to follow up on a little bit, 
and that is the blurring distinction between registered and 
unregistered Catholics, open or underground, or however we 
might describe them. That is something that we on the 
Commission staff have only begun to understand a lot better 
this year. I am glad you brought that up.
    I am very short on time, so I think I am just going to pass 
the questioning on to my friend and colleague, Dave Dorman, who 
represents Senator Chuck Hagel, our Co-chairman.
    Dave.
    Mr. Dorman. Well, first of all, thank you, to both of you, 
for coming today. The issues of religious freedom, freedom of 
association, and civil society in China are all ones that I 
know Senator Hagel considers very important, and very important 
to the Commission. I am sure that all of our Commissioners 
share this view. I do not think you have testified before the 
Commission before, and we 
always try to draw the greatest variety of viewpoints and the 
greatest variety of expertise that we possibly can. So, thank 
you for coming today.
    I had the opportunity to read your written statement last 
night, Professor Madsen. I wanted to ask you something that has 
been puzzling many of us here on the dais for quite some time. 
You mention in your written statement that many of the 
activities of the Church would not be possible without the 
informal acquiescence of government officials. This is 
something that many of us here have actually experienced during 
travel in China: the differences between provinces, the 
differences between regions, sometimes subtle, sometimes quite 
apparent.
    We have our own theories of why that, in fact, is the case. 
But I wonder if you could give us your views on whether you 
believe there are variations from province to province and from 
region to region regarding the degree of control, the degree of 
regulation, and the degree of harassment, and if so why these 
variations exist.
    Mr. Madsen. Again, this speaks to a point that Sister Janet 
just made about the way in which underground and above-ground 
factions in the Church blend together. There is a huge gray 
area between the extreme members of either side.
    If you look at the formal structures of China at provisions 
guaranteeing the hegemony of the Communist Party, and even look 
at the Constitution, on paper it looks like a classic 
totalitarian system. But in reality, the capacity of the 
central government to control the society is rather weak and 
becoming weaker all the time, partly because of the dynamism of 
this market economy, partly because of corruption and other 
factors. So there is a lot of practical space for people in 
different places to organize themselves in ways that go beyond 
the government's written regulations. People throughout China 
find ways to make their own kinds of peace with the system. The 
capacity to do this varies with many different factors 
involved, one of which is distance from Beijing. But other 
factors enter in as well.
    So what you get is enormous variability across China, and 
in some places, as far as religious groups are concerned, there 
is tremendous freedom to practice whatever you want, 
underground or above-ground.
    With respect to these so-called underground churches, in 
many places people are not living in the catacombs, you know. 
They are not doing what they are doing in hiding. They are 
building beautiful churches that everyone can see. They are 
publicly visible, even though they are not officially 
registered. To make this all happen, you have to have local 
officials at least be willing to look the other way. Sometimes 
it is done through bribery, pay offs, and so forth. Sometimes 
it is done simply because local officials do not have the 
energy to go after some of these churches. They have other 
priorities. Sometimes a combination of the above. But this 
happens in contingent ways, in ways that are variable across 
the board. The problem however, is that none of this activity 
is protected by rights under the law, so that if local 
officials change, if the national situation changes for some 
reason, this can be taken away from them. So that is why you 
get this tremendous instability.
    But, in general, there is enormous variation in China and 
enormous areas of practical freedom, although freedom is not 
guaranteed under the law. That, itself, causes problems.
    Mr. Dorman. Thank you.
    Sister Janet Carroll. If I might build on that response. I 
think that it is the old ``glass half empty or half full'' 
paradigm that comes into play. I think that my experience with 
the young people, meaning the new younger leadership among the 
clergy, religious, and the laity who are taking the leadership 
in the churches, they tend to be future-oriented people. They 
are not looking back, or even being constricted by present 
realities. But they are trying to prepare themselves for the 
future. It is much more important that they be given the 
capacity to act and enabled so that when, indeed, a more viable 
field for them to function comes into the rule of law in China, 
they will be ready to do it. So, they make the necessary 
adjustments.
    I would not say it is all being opportunistic or pragmatic, 
or anything like that, or just compromising, but they try to 
work realistically in that situation. Thus, they are less 
concerned about what they are not able to do, and they are much 
more concerned--as I remember Father Chen said to me when I 
recently visited the Social Service Center at Xi'an--there is 
so much to do that they can do, that they really are not going 
to get themselves all in a snit about what they cannot do.
    Mr. Foarde. Useful. Thank you. I would like to recognize 
Susan Roosevelt Weld, the general counsel of the Commission, 
for some questions.
    Susan.
    Ms. Weld. My first question has to do with what Sister 
Janet said about a person from a traditionally Catholic family, 
which is unregistered, deciding to register and serve in some 
of the official organizations. Is that typical? It seems to me 
that is one reason, a very strong reason, why there would be 
blurring of the two communities.
    Sister Janet Carroll. Absolutely. And, strictly speaking, 
individuals--and Dick can correct me on this if necessary--do 
not have to register, in other words, the average Catholic who 
just wants to go to Mass on Sunday or take part in some 
activity. It is the leadership and those who are responsible 
for the Church in an institutional, juridical sense, and the 
Church itself as a place of worship, and so forth. But an 
average Catholic does not even necessarily have to belong to 
the Catholic Patriotic Association, although obviously they are 
encouraged to join.
    So that explains it. Many of the young graduate students 
that we now are sponsoring in this country for studies--there 
are quite a few of them here right in the Washington area--
clergy, religious, and others, come from those types of 
families. But they know that the future requires them to be 
prepared. And the way they can have that opportunity for 
preparation is to go through the system and seize the 
opportunity. So, yes, it is quite common, I would say.
    Mr. Madsen. I would just reiterate what Sister Janet said, 
that as far as individuals are concerned, they do not have to 
be registered. It is just the institution that has to be 
registered. And individuals have different approaches to this. 
Some people in the 
so-called underground faction of the Church would not be caught 
dead inside an official Church, and that is all there is to it. 
But others want to receive the sacraments and want to be part 
of it, so they would attend if it were convenient and 
available. Sometimes they make distinctions. For instance, I 
think when I did a research project in the 1990s--it may have 
changed in the last few years--sometimes Catholics, for 
instance, go to confession. They might not want to go to 
confession to a priest in the official church because they 
might be afraid that the priest might be under pressure to tell 
somebody, and so forth. They could not trust them. But they 
would go to Mass, maybe, in an official church, but not to 
confession. And in some cases, if someone were dying and wanted 
to receive the Last Rites, they would want to be 100 percent 
sure that the Rites were going to be sacramentally effective, 
and thus they might go to an underground priest rather than an 
above-ground priest. But then in the other circumstances they 
would go into the official Church, et cetera. So, individual 
Catholics would span the spectrum and there would be a lot of 
gray areas, and very complicated sorts of things that would go 
on.
    Ms. Weld. Thank you. I am also interested in another thing. 
Is there great suspicion of either unregistered or registered 
Church members who have links, strong links, with, for example, 
people from abroad who are working in China? I ask this 
question because of that case recently in which communications 
abroad were found to be a violation of laws against disclosing 
state secrets. Is that a common situation? What is meant by 
``state secrets'' in those cases? Do you know the cases I am 
talking about? From Zhejiang Province.
    Mr. Madsen. Communication abroad is always a sensitive 
issue. You are not supposed to have communications abroad 
without being officially supervised and receiving permission. 
People have them anyway, of course. But that is one thing that 
can always be used against you, so everyone violates that in a 
way, but that gives government officials leverage to get rid of 
anybody they do not like. Many of the underground and official 
churches still depend a lot on foreign donations and foreign 
help in various ways. They get a lot of help that comes from 
different sources, sometimes from Taiwan, the Philippines, and 
of course the United States. However, 
because of the way China is set up, there is always an inherent 
suspicion about foreign contacts, and they can be used against 
you.
    Sister Janet Carroll. Yes. Of course, some of this is 
grounded in history and the experience--even our Holy Father 
himself has apologized for certain excesses in the past where, 
you know, apparently missionaries operating in good will were 
also compromised in their way of functioning in China. We 
frequently visit China. We take study groups over, what we call 
religious study groups. I have led nine of them myself in the 
last 10 or 12 years. We visit the churches. We spend time with 
people there. It is very open, very above-board. To my 
knowledge--I am certain they would tell us if it was the case--
that does not compromise our friends and those we meet with 
locally. So, we have those kinds of contexts and 
communications.
    Nowadays, we regularly receive invitations to attend church 
ceremonies, the taking of vows of sisters, dedication of new 
churches, all these normal activities that churches have, and 
we are invited to participate, and so on. So, I do no think 
that they are penalized for being in contact with us. I think 
those areas that you refer to are more a reaction by 
authorities who were aware of things that were being done. As 
we know, long documents governing foreigners' activities in the 
field of religion in China have been elaborated, describing who 
can preach, and so forth. And if those rules are violated, 
well, then of course you then lend yourself to problems. In 
many cases, as is true in every country, there are many laws on 
the books that we do not like, but it does not mean that we can 
violate them with impunity. So, you have to wait until the law 
gets changed, and work for the change.
    Mr. Foarde. Again, very useful. I would like now to 
recognize our colleague who is responsible for organizing this 
roundtable this morning and who has been looking at Catholicism 
in China this past year for us, Mark Milosch, for some 
questions. Mark.
    Mr. Milosch. Sister Janet and Professor Madsen, I am very 
glad to have met both of you today. My question is about civil 
society as much as religion. I think many of us are concerned 
with this issue because we want to learn the lessons from the 
decline of Communism in eastern Europe in the 1970s and 1980s, 
and its fall in 1989. I am wondering if you could compare the 
position of civil society in China today, with particular 
reference to the Catholic Church in China, with its position in 
eastern Europe, particularly Poland, Hungary, East Germany, and 
Czechoslovakia, in the 1980s.
    Mr. Madsen. I think, around 1989, there were some people in 
the Catholic Church, especially in the underground part of it, 
who thought that they could make a contribution similar to that 
of the church in Poland and perhaps in Hungary, in the 1980s. 
That is, the church could bring down Communism. Some of them--
at least a few of them--thought that way. They had almost 
apocalyptic understandings of this. This is one reason why the 
government was so eager to crush them when it cracked down in 
the early 1990s. I think that idea was certainly unrealistic, 
because the Catholic Church in China is a small entity, 1 
percent of the population, perhaps. In eastern Europe, in 
Poland, especially, it was very large and identified closely 
with Polish nationalism. The Catholic Church is too small in 
China to really be a force that could totally transform the 
Communist system.
    But perhaps the problem is that Chinese society is somewhat 
fragile these days. I think social stability and government 
control are increasingly tenuous. In some respects, the 
government is afraid that even little things can help breakdown 
occur. ``A single spark can light a prairie fire,'' as Mao 
Zedong said. So, they are on the lookout for any kinds of signs 
of independent activity that would have the capacity to be a 
nucleus of resistance of disaffected people. Since so much of 
the Chinese Catholic Church is rural, and since the farmers 
have so many reasons to be discontented, and there are 
thousands of peasant riots every year, the government is afraid 
that groups like the Catholic Church that do have the capacity 
to organize beyond villages could be the nucleus of trouble.
    As a matter of fact, although there have been literally 
thousands of these peasant riots and disturbances in the last 
several years, in no instance have Catholic organizations 
directed them. So, while the government has lots of reasons to 
fear instability, the Church generally has not been one of 
them, but I think the authorities are wary and they are on the 
lookout. I think this dynamic leads you to this situation, that 
in general the authorities have not bothered the Church as much 
as they might because they have other problems to deal with. 
But if they have reason to be suspicious, then they can move 
in, so you have an ebb and flow of repression and loosening up.
    Sister Janet Carroll. The only thing I would add, perhaps, 
to that, Mark--and I addressed this issue on the bottom of page 
8 in my statement--is I think the Chinese Government is at 
pains to learn the lessons from eastern Europe, certainly not 
to repeat the political mistakes that were made. To my 
understanding, the authorities are concerned about learning the 
socio-economic lessons, to avoid the fragmentation and the 
terrible factionalism, the ethnocentricity, and so forth, that 
has exploded all over eastern Europe and is causing such grief. 
They want to ensure that it not happen in a country such as 
China, which could lend itself to that type of tension, and to 
the great detriment of everyone concerned. On the economic 
side, the government has made such progress, relatively 
speaking, in the economic area, that they want to be sure that 
it not all be lost or destroyed.
    Frankly, I think what we often label as repression of 
religious movements, even such as Falun Gong and so forth--
although I do not recognize Falun Gong as a religious movement 
myself--should more properly be labeled as much more official 
concern about the organizing capacity of those groups. It has 
very little to do with religion and ideology. It has everything 
to do with the fact that churches and spiritual groups can 
organize vast numbers of people who could be used for something 
other than the religious or spiritual purpose for which they 
are initially organized.
    Mr. Foarde. Really useful. Let me pick up the questioning 
now. I want to go back to a couple of things that each of you 
said in your opening statements. Sister Janet, you alluded to 
the contribution of the missionary Church before the Revolution 
in 1949 in building the institutions of civil society. But can 
you tell us what happened to those institutions? Did they 
disappear entirely? Are there vestiges of them today that were 
picked up and invigorated in the 1970s? What was the dynamic of 
that?
    Sister Janet Carroll. Probably the most obvious would be 
schools and a few hospitals. Let me say that, from the Catholic 
side, the Catholic Church in China, as Dick has said many 
times, was much more rural, and therefore was not as known for 
large 
institutions in the major cities, with the exception of Fudan 
University in Shanghai, and so forth. However, there are more 
institutions in the countryside. I think a lot of those, when 
the properties were taken, and so forth, they just all went 
away.
    A lot of those properties are what is now being recovered, 
actually through the services of the Catholic Patriotic 
Association. So I think maybe it applies more to Protestant 
Christianity, which had far more established colleges, 
universities, and hospitals, and so forth. For example Peking 
Medical College was originally a Protestant institution. A lot 
of the buildings, of course, are back being what they were, 
hospitals and schools. For example, the famous School of the 
Sisters of the Sacred Heart, who were very famous for their 
work. That school is still a school, but it is not any longer a 
Catholic school. One of my very favorite ones, though, is the 
very large building that the Franciscan Missionaries of Mary 
had quite close to Tiananmen Square, a building that is now a 
McDonald's.
    Let me add one more point, though, about reparations. I 
work with the United Board for Christian Education in Asia on 
the China subcommittee, and I understand that a lot of 
reparations were received for Christian colleges that had been 
confiscated in China. I do not know if ``reparations'' is the 
correct word. Nonetheless, money was received by the sponsoring 
agencies among Protestant groups--which was held in trust and 
is being used for programs to strengthen and develop tertiary 
education all over the country today.
    To my knowledge, and maybe Dick could speak to that, I know 
certainly speaking for the Maryknoll Congregation now--I belong 
to the Maryknoll order--we never received any funds or anything 
like that for the properties that were taken. But we are happy 
now that a lot of them are reverting to the Church and the 
properties are being used again by the Church.
    Mr. Foarde. If you have a comment, Dick, I would love to 
hear it.
    Mr. Madsen. One issue that also sometimes becomes a bone of 
contention with the official and underground churches has to do 
with the recovery of property that was confiscated in the 1950s 
by the Communists. As part of the new policies on religion, 
some of that property is supposed to come back to the churches. 
The churches are being rebuilt and they are supposed to get 
some of the property. Of course, the property, if it goes 
anywhere, is going to go to registered churches, the official 
churches. Sometimes the underground feels that it ought to be 
getting this property instead. It is complicated, because some 
of this property has become very valuable. For instance, the 
property around the main cathedral in Shanghai was basically a 
rural area in the early 20th century, but now it is the heart 
of the commercial district of Shanghai. The real estate is 
worth a fortune there. If the Church in Shanghai got all the 
property back that it owned before 1949, it would be fabulously 
wealthy. Even so, it has gotten a portion back and actually it 
is quite well off because it has developed that into office 
buildings, and so forth. The government is not going to give it 
all back because it has become too valuable now, but then there 
is contention about how much it should give back, and so forth. 
This is one source of some of the controversies that you have 
over the church money.
    Mr. Foarde. Interesting.
    Sister Janet Carroll. Frequently they will trade 
properties, too. At Fushun in Liaoning Province, they have just 
traded what had been Maryknoll property located in the heart of 
the city for a large tract of land on the edge of town, given 
to the Community of Sisters where they have now just built a 
monumental building. They had to do that because the scope of 
the land dictates the size of the building. So they built a 
center, a home for their elderly sisters, and a formation and 
training center for the young sisters, and so on. It was a 
tradeoff. In fact, it was of interest to them. They really did 
not want to be in the hubbub of the downtown market, anyway, so 
they were glad to be rid of the property.
    Mr. Foarde. Interesting. Let me go to Dave Dorman for more 
questions.
    Dave.
    Mr. Dorman. Sister Janet, I wanted to refer to your written 
statement. I appreciate your introduction and your reference to 
the importance of seeking ways to build bridges and 
opportunities with the Chinese Government and the Chinese 
people, and to use these bridges in a constructive and 
cooperative way to help China realize a democratic future. I am 
sure that Senator Hagel would agree as well. I use that as an 
opening because this Commission is dealing with some of the 
most difficult and contentious issues in the U.S.-China 
relationship. Some of those fall within the area of religion. 
In your written statement, you build a very nuanced argument 
that I found interesting.
    In one paragraph, in particular, you refer to times where 
Chinese Christians and other believers find themselves in 
political conflict with the state, and then suggest that their 
actions are too confrontational. Now, it seems to me--and I 
emphasize the word ``seems''--that this sort of argument does 
not take into account individuals in China who peacefully 
express their religious views and find themselves in prison. 
This is a difficult issue for the Commission. As both of you 
have pointed out today, there are positive developments in 
China regarding Catholics. At the same time, many religious 
believers in China are suffering severe repression.
    How would you add this piece to the argument that you 
present in your written testimony? Also, I would ask, could you 
offer some guidance to the Commission in terms of building 
opportunities and bridges with China on the issue of religious 
freedom.
    Sister Janet Carroll. Well, it is very broad. Anyway, let 
me just try to speak to a few things. Thank you for 
acknowledging that. Again, one cannot say everything that one 
wants to say, so I sometimes tend to want to say the things 
that I feel have not been said clearly enough, in place of 
other things that are said often.
    First of all, let me make this clear: No one wants, in any 
sense of the word, to gainsay the sufferings and the 
difficulties of any people in China--religious believers 
certainly among them--who have suffered simply because of their 
conscience and their beliefs. We all know that this repression 
is something that is just outright reprehensible, and people 
should not be held in any way and made to suffer for their 
beliefs.
    It is not my intention ever to gainsay any of that. Indeed, 
no matter how you got there, if you are the one that is in 
these dire straits, there is nothing else that matters but 
that, so you cannot really relativize it and say, ``Oh, well, 
but on the large scale of things, you know. . .'' So I do not 
mean in any way to imply that view.
    But what I am talking about is this--and I think Dick made 
a reference to it--I mean the poles that tend to exist in the 
Catholic communities on the two ends of the spectrum, which is 
this whole large thing called the Catholic Church in China, 
where you have very recalcitrant groups on both ends of the 
spectrum. It is not just that they are on the side of the very 
hard core ideologues among Chinese authorities who take a dim 
view of anything, religion or whatever, that they are not 
controlling. On the side of the church, there are also those 
who say, even if the Holy Father himself comes out and makes a 
statement, they say he is misinformed.
    So, you have these two extremes. Leave those aside. But in 
the middle, I think, you have all of the gray area that we 
constantly talk about, and I think that is the way to go. We 
need more gray area. We need more people who are kind of trying 
to find a way in the gloaming, in the fog, and to come 
together.
    You have heard this before, there are rights and there are 
rites. R-I-G-H-T-S, which in the West we are very strong about, 
and in China and in the East, R-I-T-E-S is much more important. 
In other words, the way something is done is almost as 
important as what is done.
    When Senator Hagel was talking about building bridges, to 
me, that is a coming together. You do not build a bridge by 
throwing it over there and standing on this side and waiting 
for everybody to cross over. That is not reconciliation or 
bridging differences. It is something coming together in the 
middle. So, that is what I mean. I think there are ways. We see 
this.
    I use this analogy a lot: In the West, there is a river, 
and it is not running very smoothly, so you want to have it go 
straight to its outlet, so you go in there and you dynamite out 
the rocks, and it goes right straight through. But if you look 
at a Chinese painting, the water is always going around, over, 
and under, and around, and over, and under. It finds a way. It 
gets there in the end, but it does not cause such damage in the 
process. So maybe that is a little simplistic way of thinking 
about it, but there is something there that I am trying to say. 
The way we do it could achieve the same ends. It might take 
longer, and in taking longer, if people are languishing in 
prison or languishing and suffering, that is not good.
    We do not want to compromise them in any way. But I think 
marching out in the streets and demonstrating, things like 
that--I worked for a number of years, as some of you know, at 
the Holy See Mission to the United Nations. I will never forget 
Monsignor Giovanni Calli, who was the head of the mission at 
the time, saying, what goes on at the United Nations is a world 
of diplomacy in which, behind the scenes, quietly, people can 
find ways to come together to find their common interests. Once 
it blows out in the public, nothing is going to be achieved 
because neither side can back down publicly. So that is the way 
of thinking of the school I come out of. There are ways to do 
the same thing. It takes longer, maybe, and it might be more 
difficult, and it is not always as satisfying as being able to 
make a big statement.
    Mr. Dorman. Good. Thank you.
    Mr. Foarde. Susan, do you want to pick up the questioning?
    Ms. Weld. Sure. I guess one aspect of my question has to do 
with civil society and the reason the government sees the 
organization of entities in civil society as so dangerous, when 
now there is such a need, especially in the countryside where 
the church is the strongest. So, that is one part of it. But 
the other is this: the reasons the government feels that 
religion is dangerous and backward. One reads a lot of things 
that they put out saying it is anti-science, asking, how can 
you have religion in a country that wants to develop?
    Do you think there is movement there in the government for 
changing this view of religion? Because you can prove that in 
the West that science and religion are very happy partners in 
development. So, that is part of my question.
    The other is that in some of your writings you say the 
Christian villages are stable. They have little crime and 
everybody has a great, strong community feeling. It seems to me 
the government now fears instability so much, that that would 
be a model they should try to work with rather than fight. Is 
there any chance that that might happen?
    Mr. Madsen. I think that what Christians do, and should do, 
is point to all the positive things that religion can bring. 
People in China, researchers for instance, the Academy of 
Social Sciences--have also pointed to that. Religion brings 
good things, such as social stability. Social stability lowers 
crime rates, et cetera. So, obviously it has positive social 
functions.
    In the government in China itself, as in any government, 
there are different factions, different sides, hard-liners, 
soft-liners: some would accentuate the positive, some would be 
worried more about negative consequences. The negative 
consequences are the possibilities of linking up and 
communicating across wide areas that then could channel 
discontent. Religion brings those things, too.
    Also, of course, now I think globally, there is a more 
global atmosphere of being aware of the downside of religion, 
the fanaticism, and so forth. This problem has been 
accentuated, of course, since September 11th. So, the 
government also draws upon that sometimes.
    I was in a meeting last year in Shanghai, and one person 
there was from the Religious Affairs Bureau who in many ways 
was very reasonable. But then at the end he talked about the 
need to fight terrorists, he said, like bin Laden and the Dalai 
Lama. I and my colleagues said, ``Wait a minute! Do you really 
want to equate the Dalai Lama and bin Laden? '' He said, ``Yes, 
yes, they are both terrorists. They both want to split China. 
They are dangerous.'' So, that was the mentality that can get 
generated in these times. Yet the same person was willing to 
recognize various positive things that religious communities 
can do. So, we are living in the stage of ambiguity right now.
    In terms of science and religion, I think, in general, 
there are old textbooks and old thinking in China from probably 
the early part of the 20th century, that said that advanced 
countries in the world to replace religion with science. This 
was part of the ideology of the May 4th Movement. In fact, you 
saw the same thing with the Kuomintang in Taiwan. To some 
degree, more sophisticated people in China and elsewhere are 
developing a more subtle understanding of this, but there is 
still this kind of popular legitimation through science that 
has a very strong foothold. But it does not map onto reality. 
So, I think that the prejudice against religion will change as 
the level of education begins to rise in China.
    Sister Janet Carroll. Interestingly, we were recently 
contacted by some scholars and academics in China asking if we 
could supply them with copies of the Vatican documents which 
had been translated into Chinese. Of course, they have been 
translated into classical Chinese in greater China. The reason 
they gave for their 
interest in these documents is that they are interested in 
doing commentaries on these documents which would ``help,'' 
exactly as they said, their government and people in authority 
to revise their understanding of the role of religion in 
society and the Church in the modern world. They were 
interested in, as it were, the policies coming out of the 
Second Vatican Council about the Church's social role, its 
importance in that way, and not this old mentality that you 
referred to, this sort of superstitious type of thing that you 
can dismiss easily. I thought that was a very interesting 
development, that also echoes the keen interest about the role 
of religion in society among young scholars today in China.
    In fact, the Chinese Government is sending many young 
scholars--I know we even received one that the State Department 
was facilitating a few years ago from People's University to 
come and have experience and exposure in the States at the 
request of the State Department to help him understand how 
religion functions in our society. So they are very keen and 
interested in that. Some years ago, we had a delegation from 
Shanghai also at the time when Jiang Zemin was still mayor of 
Shanghai, coming to try to understand that issue. In fact, we 
met here at the law school. I do not recall if it was at 
Catholic University, or where it was. Anyway, there is a keen 
interest.
    I think that those in China today that have that very old 
ideological fixation of the non-compatibility of religion and 
science, or religion and modernity, even, are few. However, it 
does not take many, if they are in positions of influence, they 
can certainly still have an impact. But I think the more 
balanced leadership, the more rational contemporary leaders in 
China today, are certainly more open in their view of the role 
of religion in society. I mean, not to deny that they see a 
very utilitarian role.
    Mr. Foarde. Let me recognize Mark Milosch again for more 
questions. Mark.
    Mr. Milosch. It seems to me that one could say that the 
Chinese Government permits quite a few Catholic civil society 
organizations--for example, the parish itself, which, for most 
Catholics in the world, is Catholic civil society. Of course, 
there are also Catholic social service organizations in China. 
And there are orders of sisters in China and there are 
seminaries. But it seems that the point, for the Chinese 
Government, is always to keep Catholic civil society 
organizations local, rather than national, or even provincial. 
Are there informal networks whereby Catholics try to link up 
across diocesan and provincial boundaries? How do they do that 
and how does the State try to frustrate that?
    Mr. Madsen. Well, there are both formal and informal 
networks, of course. There are national publications, like the 
magazine published under the auspices, ultimately, of the so-
called Patriotic Association. The Patriotic Association tries 
to monopolize the formal interconnections. It calls for 
national bishops meetings, and so forth. So there is a formal 
organization of the church. At the same time, there are a lot 
of informal connections, although they are sometimes truncated, 
made difficult, because of government supervision. So people 
around China know what is going on in various ways, sometimes 
through rumor, sometimes through word of mouth, sometimes 
through passages of mimeographed materials.
    And people travel. In the old days, it was very difficult 
to travel from place to place in China, but now people travel 
to different Catholic centers from around the country. For 
instance, I was doing a little study project of a pilgrimage 
site of Catholics in Sheshan near Shanghai, and people come 
from all over China. They come from Xinjiang, they come from 
Inner Mongolia. They come on long distance buses, especially in 
the month of May. So, they know when this is happening. They 
can organize themselves to come. Obviously when they come, it 
is a chance for them to mingle and to learn things.
    So there are networks that are difficult to see from the 
outside because they are not formalized and they are not very 
visible, but there is a lot of intercommunication that goes on, 
maybe because some of it is not official. It is more difficult, 
therefore, to separate, fact from rumor. So you get variations 
in quality and quantity of information, which causes its own 
difficulties and problems sometimes.
    Mr. Milosch. If I could follow up right away. What about 
Internet sites being used to create these networks? I hear 
about the underground and official Catholic communities setting 
up Internet sites--that these are always popping up and being 
closed down, and popping up again.
    Mr. Madsen. I do not know about underground Internet sites. 
They are making a major effort to keep those under control. 
There are above-ground Internet sites, for example in the 
Shanghai Diocese, and this Beifang Jinde has a good Internet 
site. Catholics, like many other groups in China, are 
developing and starting to get used to using the Web. 
Underground sites, I do not know of. If they do surface, the 
government will shut them down, I am sure. Do you know, Sister 
Janet?
    Sister Janet Carroll. No. I would not know of any. I am not 
sophisticated in that area, myself. But, as you mentioned, I 
know the public ones. Two other points I would mention in terms 
of national networking channels. Not only does Beifang Jinde 
Social Center do the social program, but they also have a 
national Catholic newspaper--Faith Fortnightly--which 
circulates about 50,000 copies biweekly. You can subscribe to 
it right here in the United States, and so forth. It really is 
published there by the people. It carries world Church news, 
local Church news, and has sections on spirituality, 
devotionals, and a lot of local Church news. It goes out all 
over the country.
    There are also a couple of Catholic presses that transcend 
their dioceses--like Guangqi Publishers in Shanghai, which 
serves the whole country. Beijing has a press. I believe it is 
called Wisdom, or something like that. Then Xi'an has a smaller 
one, and they do a lot of publishing of books, mainly in the 
area of theology, scripture, spirituality, and devotional 
literature for the people.
    Then, I do not know if this would fit in this category or 
not, but there is a recent development of post-ordination 
courses being organized for young clergy. They even welcome 
foreign ``professors'' to give short courses within those 
programs. Clergy from around the country go to the National 
Seminary in Beijing for several months of study, while others 
go to the Major Seminary at Shanghai and also Shijiazhuang. 
This latter program receives professors from Fudan University 
in Shanghai to help with the teaching, as well as having 
visiting professors from abroad. Of course, there is also a mix 
of other ``education''--history, politics, and social studies 
required by the government as components of these programs. 
Nonetheless, these programs are definitely helping to develop 
the ministerial life of the young clergy. It is also a chance 
for them to meet and form friendships and to mutually encourage 
and support each other.
    Finally, mentioning the Internet, I would say that we 
should not just think of the old models of parish or maybe 
diocese. Today young people in China, like everyone else, 
network through the Internet. Everybody has an e-mail address 
in China and cell phones are everywhere. Young people 
especially are in touch with each other all the time. So there 
is a lot of networking going on that transcends what we would 
think of as traditional church networks. The parish structure 
in China, except in the major cities such as cathedral 
parishes, is not as clearly defined as we would think of it 
here in the United States, but they may be organized as 
dioceses, and the bishop is central to the leadership of those 
groups in each province.
    Mr. Foarde. More useful information and ideas. Thank you 
both for those comments. Dick, I wanted to go back to something 
that you said in your opening remarks. I was very taken with 
your anecdote about your briefing for the Chinese officials 
where you were talking about regulation of civil society in the 
United States, and being told, in effect, ``No, we could never 
do that here.'' I am wondering if this sort of directed, 
corporatist approach that you were talking about toward which 
they seem to be moving in China is prevalent anywhere else in 
the world, in Europe, in Latin America, or Africa, for example, 
or would this be something that is unique to China as it 
develops?
    Mr. Madsen. I think there are different models for how to 
regulate and organize civil society. There is the Anglo-America 
liberal model. There is a European model which you see coming 
from the German tradition, or from France. To some degree, in 
the early part of the 20th century, insofar as China got ideas 
about organizing civil society, they came from such European 
sources, often via Japan. To some degree, that more corporatist 
approach may fit Chinese culture better and Japan might be a 
model. Japan is not liberal and democratic in the sense that it 
is here, but there is a lot of openness for civil society. In 
Japan, if you know how that works, civil society groups have to 
be registered and organized. It is much more controlled than it 
would be here.
    Mr. Foarde. So there is more structure.
    Mr. Madsen. There is much more structure to it. But there 
are still quite a lot of democratic freedoms. We rightly 
consider Japan a democratic society. If China keeps on 
evolving, it might evolve into that general model of 
institution, perhaps, based on European civil law, not on 
Anglo-American common law. So, that is one speculation. As it 
is now, the problem with China is there is not any law. It 
really is just a work in progress, so it is hard to know where 
it is going to end up.
    In the government, there are people who want to move toward 
a more real rule of law and those who do not, and they are 
struggling. It is hard to know what the outcome will be in the 
short term. In the long term, I think, it has to develop a 
legitimate rule of law or else it will come apart.
    Mr. Foarde. Interesting. Useful. I guess I would ask both 
of you, we have gone around a couple of times on different 
aspects of it. But I would like your views more directly on the 
specific question of why the Communist Party and the government 
permit these sorts of social service organizations to come up 
and operate, albeit unevenly at different times in different 
places. What interest does a party that really wants to control 
everything have in doing that?
    Mr. Madsen. The Party is not trying because it does not 
have the capacity to provide social services for people 
throughout China any more. The old ``iron rice bowl,'' the old 
state-run enterprises, that is all gone. There is an enormous 
problem being created, with laid-off workers, people lacking 
social services such as basic health care. So they are under 
tremendous pressure to provide substitutes for what they 
provided before. This is their dilemma. If they do not provide 
these services, all sorts of terrible things can happen, 
including social unrest. But not just social unrest. Basic 
health care, for instance. Even in the most dim realization of 
self interest, they have to provide things like inoculations 
for people coming into cities like Shanghai, or else epidemics 
such as SARS are going to get out of control. So they have to 
make these services available, even though they do not have the 
capacity to do so in a structured way. So they have to allow 
various kinds of groups the leeway to do this. At the same 
time, they are worried about the chaos that can come from 
social fragmentation, so they are between a rock and a hard 
place and they are trying to find their way through. Again, it 
is difficult to know where it will end up because there are so 
many contingencies there, that there is no clear path to the 
future.
    Sister Janet Carroll. I would just reinforce that idea, the 
notion of China's absolutely sheer need. Again, I do not think 
it is 
entirely just utilitarian in that sense of the word. I think 
the government is genuinely concerned to try to meet the 
tremendous social needs. Having shredded the social safety net 
that existed in the old structured socialism and the ``Big 
Brother,'' or the ``danwei,'' the government has left people on 
their own. We just saw in the New York Times in the past couple 
of days several terribly moving articles about the plight of 
migrant workers and the poor and struggling people in different 
parts of the country. Migrant workers are contributing so much 
to the economy of China, but at the same time placing these 
tremendous burdens on social services. Just when they have 
shredded the social safety net, these problems are multiplying 
like crazy. I think I cited in the paper about the president of 
the World Bank. Mr. Wolfensohn has just taken China on right at 
this conference that was held in May in Shanghai--on the need 
to address poverty, the need to reduce poverty, and that they 
are facing this income gap. That is the issue that I want to 
speak to, this tremendous gap that is growing up--it would have 
been unheard of in the period of high Communist China when for 
a time all boats were rising together even if they were rising 
ever so slowly. Now we have this fabulous wealth alongside of 
outright degradating poverty. Mr. Wolfensohn warned the Chinese 
Government that this is grist for the mill of social 
instability. As I said in my paper, a more serious challenge, 
that lay in the lap of the government than to suggest that 
religious groups are going to cause social instability.
    So the Chinese people are desperately in need of the 
assistance, as many governments in the world are, of all the 
sectors in society. All should be able to contribute. I hope it 
will be able to be done harmoniously. It is not always easily 
done.
    I remember from my time with the United Nations, when I 
worked on NGO issues, the Non-Governmental Organizations 
Committee, there were very few non-governmental organizations 
anywhere in the world, in our experience, except mostly in the 
West. But GONGOs, Government-Organized Non-Governmental 
Organizations, were common all over the world, and I think this 
will be the model in China, too. But I hope that the needs will 
be able to be met before the situation deteriorates any 
further.
    Mr. Foarde. Thank you. Very useful. We have a few minutes 
left. Dave, do you want to pick up a question?
    Mr. Dorman. Sure.
    Sister Janet, I want to thank you for bringing in a variety 
of literature today. I picked up a Beifang Jinde brochure on 
the way in. It is so beautifully designed, it just draws your 
eye, so I have to admit to you that I have actually looked 
through it while sitting here. I would like to ask you a few 
questions about Beifang Jinde if I could. First, the brochure 
says ``since 1998.'' So I think, as you have mentioned, we are 
really not talking about history, we are talking about a 
current event. The brochure also says ``the first Catholic 
nonprofit, non-governmental social services organization.'' I 
am just guessing that the group or person that is responsible 
for setting up Beifang Jinde could be easily described as 
devout, hardworking, and very savvy. I am wondering if you 
could enlighten us to the work that was done to put this 
organization together. I am also guessing that because the 
brochure says ``the first,'' there is also a second and third 
organization now? Could you also comment on the extent to which 
the lessons learned from setting up Beifang Jinde were shared 
with these organizations?
    Sister Janet Carroll. Yes. I think ``the first'' has to do 
with the fact that they are probably the first one that 
registered as an NGO and are able to function as such. Of 
course, this organization is like groups such as the Amity 
Foundation on the Protestant side which have been in existence 
for a long time.
    Yes, like many things in China, a lot depends on the 
personalities involved. The social centers I have spoken of 
rely on the shoulders of gifted young priests like Father Jean-
Baptiste Zhang at Shijiazhuang and Father Steven Chen at Xi'an, 
who are able to do these things. Both of them are movers and 
shakers. It is not easy. They deal with a lot of difficulties 
along the way, but they get up and over them. However, before 
these centers were actually formally registered, the programs 
were already quite well established. Credibility is very 
important. For the center for which the newsletter is 
available--that one I am sure is also registered, because they 
receive funding from outside and they have a lot of 
collaborative projects with groups like Caritas, operating out 
of Hong Kong, and so on. And I believe the one at Shenyang, if 
it has not already received it, it is seeking registration and 
recognition as official. In fact, I think it is. We were there 
in June, and I remember now seeing this large bronze placard 
that they had ready to go up on the wall of the building 
announcing this Catholic Social Service Center, which would 
mean that they would have local approval. As I said, I would 
not doubt that there are other places that also are moving in 
this way. China is a big place.
    In these three cases, I know the three priests who are 
involved in the direction and they tend to be very gifted, 
talented young men who, as I alluded to before, see the 
opportunity and say, ``There is lots to be done, let us get in 
and do what we can do within the confines of the situation, and 
more will come later.'' All three of them happen to have had 
opportunities for study abroad, and I think that helps a lot, 
as it does for any group, to have chances to be exposed to 
wider realities. Most recently, Father Joseph Zhang of Shenyang 
led a team of sisters and laity to Thailand, where they 
participated in an HIV/AIDS training workshop for several 
weeks. Now they are doing that sort of work in that northeast 
China area. Let me tell you that that brochure is even nicer 
looking than this. This is just a Xeroxed copy of a glossy 
folder that they have.
    Mr. Dorman. Thank you.
    Mr. Foarde. We are very short on time, so I think I would 
give the last set of questions to Mark Milosch, if you have 
questions. Mark, please.
    Mr. Milosch. Yes, I do. Thank you. It is perhaps not such a 
short question, but maybe you will be able to give it a short 
answer. I am wondering if there are characteristic Catholic 
attitudes that affect how Chinese Catholics come together, or 
how they approach civil society, whether in formal associations 
or informally in the Catholic underground? I am thinking of 
sociologists who have written about Catholics as being 
different from non-Catholics, about the idea that the Catholic 
religion creates a kind of ``Catholic personality.'' Is that 
good or bad for civil society? Do Chinese Catholics even have 
this ``Catholic personality? '' Or are Chinese Catholics very 
much like other Chinese people because they have been 
socialized in an overwhelmingly non-Catholic society?
    Mr. Madsen. Well, basically I think they are like other 
Chinese people, although, because of the rural bias of the 
church, they are more like rural Chinese people than modern 
urban Chinese people, although that may be changing. In 
general, the Catholic organization is, of course, hierarchical. 
The Protestants are congregational, so it is a grassroots kind 
of organization. The Catholics still look to the priest and 
bishop, and things coming from the top down. The Church is 
organized that way. Catholics do not grow quite as fast as the 
Protestants, I think, because Protestants rely upon lay people, 
lay preachers, and the Catholics still rely on the priest.
    To some degree--and this is an impression--the Catholics in 
China, somewhat the same as in other parts of the world, expect 
funds to come more from the top down than raising them 
themselves. You have more of that horizontal organization with 
Protestants. A place like Shanghai has lots of services because 
it has that real estate that I mentioned that has been 
developed, and so the money comes from the top down. It is not 
people putting money in the collection plate and organizing 
themselves. Those are Catholic characteristics which I think 
that you still see in China, although things are changing.
    One thing that has paved the way for some of this change is 
the way in which, when the church was suppressed during the 
Maoist years, Catholics had to organize themselves locally 
without priests, so there were lay leaders and local 
organization. To some degree, that has been supplanted now 
during this reform period by the more traditional forms of 
organization. But there is this move toward local independence. 
There is a little bit of protestantization, perhaps, going on, 
although its intent is consistent with this other hierarchical 
principle, which is also being changed as they get influence 
from the Second Vatican Council. So, it is a dynamic mix.
    Sister Janet Carroll. I would just add two things. One, our 
colleague, a good friend of both Dick and me, Dr. Jean-Paul 
Wiest, has said that the expulsion of the missionaries in the 
1950s was sort of a ``happy fault'' for the Church in China, 
because for the first time in its history it had to stand on 
its own two feet and act autonomously within the confines of 
being a local church, and assume leadership. In some ways, the 
fact that the Vatican Council passed China by, somehow the Holy 
Spirit was working there, to let the laity get involved, which, 
of course, in the West we took as a great development in the 
Catholic community after the Vatican Council. So, the Holy 
Spirit found a way to do it in China without having the 
Council's conclusions be promulgated there.
    The other point I want to make is more to the point. I 
think the character of the way Catholics can function in civil 
society in the Catholic Church--and it is only starting to get 
under way in China because they have to know more about it--is 
we have, in Catholicism, a great body of social thought. I 
think that is a great grounding for the activity which can 
underpin our call to work for justice and peace. That message, 
I think, the Catholic social teachings, would be very welcome 
by the authorities in China if indeed it could inform the way 
Catholics are able to engage in the civil society.
    Mr. Milosch. Thank you.
    Mr. Foarde. We have run out of time for this morning, but 
it was a fascinating conversation and discussion. We very much 
appreciate both of you coming from a great distance, and a 
shorter but not inconsiderable distance, to Washington to share 
your expertise with us.
    So on behalf of Chairman Jim Leach and Co-Chairman Senator 
Chuck Hagel and all the Members of the Congressional-Executive 
Commission on China, thanks to our two panelists, and to all 
who came and attended today.
    I would remind our guests about the hearing on Hong Kong 
next Thursday the 23rd, and then the presentation of the Annual 
Report in a press conference over in the Longworth Building on 
October 5.
    For today, then, we will bring the gavel down on this one. 
Thank you all very much.
    [Whereupon, at 11:32 a.m. the roundtable was concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                  Prepared Statement of Richard Madsen

                           SEPTEMBER 17, 2004
              AN OVERVIEW OF THE CATHOLIC CHURCH IN CHINA

    Although faced with severe challenges, the Catholic Church in China 
is flourishing. It has at least 12 million members (a four fold 
increase from the three million Catholics in 1949), many of whom 
exhibit extraordinary amounts of devotion and commitment to their 
faith. There has been a steady increase in construction of new Church 
facilities and a steady stream of new candidates for the priesthood and 
religious life. There are active interchanges between Chinese Catholic 
leaders and leaders of the worldwide Church. A significant number of 
newly ordained Chinese priests, seminarians, and sisters have been able 
to study abroad. Chinese church leaders regularly receive visits from 
priests, bishops, and even cardinals from abroad, and Chinese churches 
receive economic help from sister churches around the world. The 
Chinese Catholic Church is on an upward trajectory of growth in numbers 
and in the size and quality of its institutions. By some measures, one 
could argue that it is flourishing to a greater degree than the Church 
in Europe and the United States.
    At the same time, the Catholic Church in China faces severe 
problems. The most troublesome is the split between ``underground'' and 
``official'' factions. Catholics in the official Church carry out their 
religious practices within venues officially registered with the 
government and subject to government regulation and supervision. 
Sometimes out of principle, sometimes out of necessity (because of a 
lack of officially approved Church facilities), underground Catholics 
practice their religion outside of the officially approved framework. 
In many places, underground and official Catholics get along quite 
well. Under some circumstances, however, they become bitterly at odds, 
with underground Catholics accusing the leaders of the official Church 
of having fatally compromised their faith by collaborating with a 
Communist government and betraying their bonds of loyalty to the Holy 
See.
    Apart from these serious and widely publicized problems of 
conflict, there are more subtle, and perhaps in the long run more 
difficult to resolve problems. One is the lack of clergy. Although 
there is a steady stream of new priests, it is not large enough to meet 
the needs of a church that, because of inability to ordain significant 
numbers of new priests during the repression of the Mao years, is top 
heavy with old priests who are rapidly reaching the end of their lives. 
Another set of problems stems from the difficulty of formulating 
versions of the faith that would appeal to urban people. The great 
majority of Catholics are rural and their beliefs and practices reflect 
the values of a rural lifestyle. This form of faith is less 
comprehensible and attractive to urban people. The Catholic seminary in 
Shanghai, for example, has few students who actually come from 
Shanghai--most come from small villages in the hinterlands. As China 
becomes increasingly urbanized, it may become harder for the Catholic 
Church to grow--unless of course it adapts its theology and 
organization to a modernizing world, which may be difficult for a 
leadership already stretched thin by the demands of ordinary pastoral 
care.

          THE CHINESE CATHOLIC CHURCH AS PART OF CIVIL SOCIETY

    In both its strengths and weaknesses, the Catholic Church reflects 
the overall development of civil society in China during the reform era 
(i.e., 1979 to the present). By civil society, I simply mean the array 
of social groups formed by voluntary association, which is made 
possible by the opportunities for mobility that are the consequence of 
a modern market economy. The marketization of the Chinese economy has 
loosened the ties of dependency that bound peasants to their people's 
communes and workers to their State owned enterprises. People now move 
around looking for work. They form new groups for economic help and 
social support. They need such groups because the government no longer 
has the will nor the way to provide social security through its State 
controlled institutions. Such voluntary associations form the 
beginnings of a civil society, which is an almost automatic byproduct 
of a market economy. But by itself such a civil society does not lead 
to a stable, just, and peaceful society. Western political philosophies 
offer various visions for how to make modern civil societies stable and 
peaceful. These involve the construction of a rule of law that 
guarantees citizens the right to form free associations while 
regulating these associations so that they contribute to a common good. 
But the Chinese government has not yet developed a stable rule of law 
that would guarantee the right of association while regulating such 
associations in a way that would seem legitimate to most of their 
members.
    Under these circumstances there has been a great flourishing of new 
forms of 
association. But many of these associations exist in a legal limbo. 
They can be arbitrarily closed down. Because of this lack of security, 
they have to adopt self-protective measures that may cause negative 
consequences for society at large. Sometimes they have to conceal their 
activities. Sometimes they cultivate particularistic relationships 
(often lubricated with bribes) with powerful people who can protect 
them. Sometimes they develop paranoid attitudes toward the government 
and one another. Because of lack of oversight, sometimes their leaders 
abuse money and power. The Catholic Church is not immune to these 
problems that afflict Chinese civil society as a whole.
    Much of Catholic activity exists in a legal limbo. The government 
specifies that Church activities must take place under the auspices of 
the Catholic Patriotic Association, which is supervised by the State 
Agency for Religious Affairs. But only a few Catholic apparatchiks are 
fully committed to this institutional framework. Most Catholics, 
including most bishops and priests, who work within the officially 
approved framework ignore much of the spirit if not the letter of its 
regulations. For example, although they are not supposed to have direct 
relationships with the Vatican, a large majority of bishops within the 
``official'' church have received ``apostolic mandates'' from the Holy 
See, that is, they have gotten Vatican approval to be bishops. This 
would be possible on such a large scale only through informal 
acquiescence from government officials responsible for regulating and 
controlling religion. On the other hand, most underground Catholics 
carry out their activities in a very visible manner, in full view of 
government officials. This is also possible only because of informal 
acquiescence from agents of the state.
    Since such activities are not protected as rights under the law, 
however, they can be suddenly suppressed. Thus in recent years we have 
seen waves of arrests and church demolitions followed by periods of 
relaxation--all in ways that from the point of view of people in the 
grass roots must appear unpredictable and arbitrary. This in turn fuels 
the anxiety and paranoia that lead to factionalism. But such 
factionalism affects all areas of Chinese civil society, not just the 
Catholic Church.

      THE CHINESE CATHOLIC CHURCH AND INHIBITION OF CIVIL SOCIETY

    Although the Catholic Church reflects many of the characteristics 
of Chinese civil society in general, the Church has some particular 
features deriving from its unique history, organization, and theology 
that place it partially in opposition to the development of a modern 
civil society.
    As modern civil societies develop, they usually produce 
associations of national and international scope that transcend the 
interests of particular localities and help solve problems of national 
importance. Thus, the American Catholic Bishops conference speaks out 
on problems of national relevance and Catholic Charities distributes 
aid to people across the world. At present it would be hard to imagine 
the Chinese Catholic Church producing such organizations. Because the 
Vatican has not established diplomatic relations with China, it is 
unable to openly regulate China's Catholics. There is no Vatican nuncio 
in Beijing to help make sure that Chinese bishops are following papal 
directives. Communications between the Vatican and China's Catholics 
have to be indirect and irregular. This gives local Chinese Catholics--
especially perhaps those in the underground--a great deal of practical 
autonomy, more even than they would have in the United States or 
Europe. This, in turn, leads to a great many local varieties of 
Catholic practice. Nowhere in the world does the Catholic Church act as 
a unified force, but in China it is even less unified than most places. 
This, of course, fits nicely with a government agenda to block the 
emergence of large scale organizations that could conceivably challenge 
Communist Party hegemony.
    The fragmentation of Catholic social organization affects not just 
the standardization of teaching about faith and morals and the 
mobilization of a Catholic voice on matters of national importance, but 
the provision of social services. There are some well run Catholic 
charitable associations in China, particularly Jinde in Shijiazhuang 
(Hebei Province) and the various associations of the Shanghai diocese. 
But some of these have ambitions to expand, it is unclear that they 
will be able to realize these ambitions because they are deeply 
embedded in their local social ecology. Unless the Sino-Vatican 
relations were greatly improved, it would be difficult to imagine the 
development of national charitable institutions like Catholic Charities 
in the USA--or even organizations like the Three-self Protestant Amity 
Foundation, which has a wide national reach.
    Another important feature of the Chinese Catholic Church is its 
embedding in traditional institutions of village and family. In the 
nineteenth and early twentieth centuries, Catholic missionaries made 
great efforts to convert not individuals but whole extended families. 
They attempted to build little ``christendoms,'' whole villages where 
social, economic, and cultural institutions were intertwined with 
Catholicism. This is indeed the pattern in those parts of China where 
Catholic practice is strongest: whole lineages, whole villages, and 
even whole counties are Catholic. The faith is thus identified with and 
supported by the non-voluntary, traditional 
institutions of family and community. This familism and localism pull 
against the mobility and voluntary association that constitute modern 
civil society. Catholic villages are said to be places with especially 
strong moral solidarity, where crime is low and mutual cooperation is 
high. But, if it stays confined to family and neighbors, the spirit of 
love and solidarity does not really contribute to the building of a 
civil society. In large cities like Shanghai, places filled with the 
loose, relatively impersonal relationships that form the building 
blocks of civil society, the Church seems to be losing ground. 
Protestant spirituality indeed seems more conducive to such society, 
which may be one reason why Protestant growth is outstripping Catholic 
growth in China today.
    In some respects, then, the Catholic Church in China does indeed 
contribute to the constitution of a civil society. In some respects it 
mirrors both the positive and the negative characteristics of Chinese 
society in this time of transition. In other respects, however, it 
stands apart from and even resists the formation of a mature civil 
society--and is challenged to reform its theology and practice so as to 
adapt to a modernizing China.
                                 ______
                                 

               Prepared Statement of Janet Carroll, M.M.

                           SEPTEMBER 17. 2004

    Senator Chuck Hagel, at a session of this Committee last June, 
astutely noted that ``China's future is also important to America's 
future. It is in our interest to work broadly and deeply with the 
Chinese Government using all the bridges and opportunities available to 
us to help shape and ensure a democratic future for China.'' [CECC 
Hearing--June, 4, 2004]
    I would like to key my remarks here this morning to this challenge 
set before us by Senator Hagel--with the important caveat that I 
believe we must also work ``broadly and deeply'' with the Chinese 
people toward these noble ideals. The efforts in the field of social 
services and charitable works of compassion and mercy that have been 
very courageously and patiently initiated by religious believers 
[including Catholics and Christians of all persuasions in China 
today]--in the past decade and more, call upon us all to cross many 
bridges and reach out in solidarity and support.
    I have made available to this Committee through the Staff, a packet 
of materials for anyone here who wishes to have evidence of this 
development [albeit only a small sample] of Social Services programs 
and projects which are slowly, but steadily contributing to the 
emergence in China of a Civil Society--embryonic as it may appear at 
present.

  THE CONTEMPORARY CONTEXT FOR CATHOLICS IN CHINA: SERVING THE PEOPLE

    In the past decade or so, in the wake of the collapse of the Soviet 
Union and the demise of Communism as a credible ideology worldwide, the 
Openness and Reform Policy pursued by China, has led to spectacular 
economic growth and development. Some observers [including David Aikman 
in his new book Jesus in Beijing; and the eminent China historian 
Daniel Bays, at the Bartlett Lecture given at Yale University last 
spring]--think that Christianity in China, at least Protestant 
Christianity, may well be on the verge of entering its ``golden age.'' 
For the first time in their history, Chinese Christians had to find 
their own self-sufficiency, employ their own initiatives, and choose 
their own leadership.
    However you choose to construe developments in the past quarter 
century in China, from the perspective of the Churches--[1979-2004]--
signs of renewed opportunities for service to society and the 
propagation of Christianity are certainly abundant today. However, a 
maxim you should always bear in mind when thinking about China goes 
something like this:
    ``Everything you hear about China is true . . . at some time and in 
some place; but NOT true in another time or another place.''
    To fully understand the status of the Catholic Church in China 
within the State apparatus, to say nothing of the vicissitudes of the 
way religious policies are implemented by the Beijing Regime [which has 
recently reverted to stricter enforcement of rules and regulations for 
religious organizations]- is well beyond the limitations of our time 
here this morning. In the Q&A period I will be glad to respond to 
specific questions you may have about these and other issues.
    By way of addressing the subject of this Roundtable today, I would 
like to offer some contextual perspectives on the engagement of Chinese 
Catholics and Church-sponsored social ministries in recent years. In 
nearly three astonishing decades since the opening of the Churches, 
Christian believers in China have struggled to re-invigorate and extend 
local communities of Faith, to restore and re-build not only churches, 
but seminaries and convents, to train new generations of leadership, 
and subsequently to establish centers for social and medical ministries 
to the society;--all with only the barest of resources--but with vast 
stores of enduring courage and commitment. As it continues this 
journey--even greater challenges are before the Church to take its 
witness out beyond the sanctuary and into the public square. Chinese 
Christians are challenged to take up the immense task of giving 
prophetic witness and service to the rapidly developing and radically 
changing Society that is China today--an economic and political power 
already playing a major role in the world community.
    As cultural and social traditions evolve, Christianity is poised to 
provide new ethical and moral foundations for the emergence of a modern 
Civil Society and State. While there is cause for caution and concern 
among friends of the Chinese people and the Church in China, at the 
same time, there is are unparalleled opportunities for Christianity, to 
once again offer valuable contributions to the Chinese people, by 
sponsoring medical and social projects and educational programs (if not 
yet formal academic institutions)--not on the scale that existed during 
the modern missionary period [1850--1950];--but commensurate with the 
material resources and human capabilities of the Chinese Local Church.
    When Daniel Bays spoke at Yale last spring he addressed prospects 
for Chinese Christians, albeit constrained by limited human rights and 
religious freedoms, to make significant contributions to the up-
building of Civil Society in China. In another lecture entitled ``China 
in Transition,'' by Roderick MacFarquhar [Professor of History and 
Political Science at Harvard and one of the world's most respected 
China scholars] this topic of civil society was also addressed, thought 
interestingly, he never mentioned Religion as such. In an otherwise 
very insightful and creative analysis of ``whither China'? at this 
juncture in its quest for modernity, MacFarquhar presented a scenario 
of the crisis China faces in the near term--as it struggles to 
transition to what he called ``a new transnational Chinese 
civilization''. His remarks pointed to important issues to bear in mind 
in considering the prospects for Chinese Christians, and indeed all 
religious believers in China today, to contribute to the emergence of a 
viable Civil Society.
    While MacFarquhar seemed somewhat pessimistic about developments in 
China in the near term, Dan Bays projected a rather positive view of 
the potential for Chinese Christians, in particular the new and more 
educated entrepreneurs in urban settings--[whom Bays identified as `` a 
significant sub-set of the emergent middle class'']--to play a 
catalyzing role in this crucial transition. Looking from the 
perspective of Catholics in China today, and reflecting on 
Catholicism's call to ``prophetic servanthood'' on behalf of the common 
good and well-being of the peoples, there are several possibilities 
that present themselves which just might reconcile these contrasting 
views.
    A contemporary Jesuit China scholar, [Benoit Vermander SJ--Director 
of the Ricci Institute in Taipei, Taiwan]--has elucidated the challenge 
and opportunity for Christianity in China today--as presenting 
Christianity as a living interlocutor with Chinese culture--a force 
capable of contributing to the redefinition of Chinese Culture, that 
both the leadership and the people require in order to re-interpret 
their history--and ultimately rid themselves of the disappointments and 
disillusionments of their past attempts to make the transition to 
become a modern Nation State. [The MacFarquhar Lecture also dealt with 
this issue of a revised understanding of their history by the Chinese 
themselves]. Only then will they be enabled to assume roles of 
influence and authority appropriate to a people with a civilization and 
culture--rich with gifts and insights essential for the achievement of 
prosperity, justice and peace for themselves and the global community.
    New China--the Peoples Republic of China--already in the latter 
half of its first century of existence--urgently needs a creative re-
invention of its traditional value system and moral categories; and to 
employ new interpretive models by which to make sense of the past, find 
common ground in the present and develop a sense of shared purpose and 
meaning for the future. On a mutually acceptable basis of equality, 
reciprocity and respect, Christianity can offer much to China in its 
quest for a ``new spiritual civilization''--[a term now even used by 
the Chinese regime to galvanize the masses under the rubric of the 
United Front.]
    This new spiritual civilization is perhaps another way of 
describing the new transnational civilization,'' which MacFarquhar 
noted was MAO TzeTung's visionary ideal from the early years of the 
Communist revolution which the Chinese people tragically failed to 
realize due to Mao's turn to brutal dictatorship.
    After some 20 years of the Reform and Openness policies--initiated 
by DENG following Mao's death in 1976--China still stands in need of a 
second generation of transformation--ideally, one that will be 
consistent with its culture, virtues and values. Among these harmony 
and right relationships are central to the Chinese psyche and must bear 
great weight in structuring a Civil Society in China.
    Regrettably, many Chinese Christians, both Protestant and Catholic, 
as well as other religious and quasi-religious movements (like Falun 
Gong), are often sadly been in conflict with the political 
authorities--who like the emperors of the Dynastic era--continue to 
have an almost ``sacral sense'' of themselves as the final arbiters of 
China's political and legal culture. While our Christian creeds and 
confession stress harmony and peace, sometimes our actions tend too 
much toward dissidence and confrontation--even if justified in 
principle and validly grounded in human and natural rights. While 
bearing in mind the Gospel admonition to ``render to Caesar the things 
that are Caesar's; and to God the things that are God's''--in China we 
also need to respect relationships and observe Rites--that is the 
manner and the way things are done; these dynamics and principles count 
every bit as much as the ``Rights,'' to which we in the West hold so 
tenaciously. It takes great patience and perseverance to remain in 
dialog--while ``seeking the common ground'' [to quote the well 
respected Protestant sinologist Phillip Wickeri in his book by that 
title.]

              A NEW DIALOGUE BETWEEN RELIGION AND SOCIETY

    Those seeking to partner with China in pursuit of social goals, 
must be willing to listen and discern with sensitivity and respect; be 
able to tolerate frustrations and the ambiguities of living with 
constraints and limitations; and be people with a capacity to risk 
difficulties and misunderstandings. Only in this manner, can we seize 
and exploit the many opportunities that actually exist for religious 
believers to give witness to their beliefs and share their ``good 
news'' with the Chinese people, in a manner wholly appropriate and 
relevant to the culture and social ethos of the times.
    This next point may seem a digression, but I believe it is very 
relevant to the subject of this discussion this morning. There are two 
important issues to bear in mind in this dialog--both of words and 
actions: one is the need mutual respect between sovereign states; and 
the other is the moral weight attached to leading by example.
    I find it lamentable that (under the present administration, the 
United States, increasingly tends to be very selective in choosing when 
to be domestically bound by international law in general, and human 
rights in particular. In Chinese terms this is known as ``resisting 
intrusion into internal affairs.'' Ironically, recent actions of the US 
Government in this regard have undercut the credibility of this country 
as the champion of internationally recognized human rights and 
freedoms.
    I refer specifically to the failure of the USA to become signatory 
to several of the International Covenants and treaties on human rights 
and freedoms, and more regrettably to withdraw from those previously 
ascribed to. This seriously undermines confidence other weaker States 
may accord to the Rule of Law; and signals to the world that powerful 
leaders can withdraw from such obligations--as different leaders come 
and go.
    This is a penchant that Communist Party leaders in China have been 
disposed for years--arbitrarily opting for rule by man, as opposed to 
the ideal of Rule by Law. It is ironic that the USA is now perceived as 
taking such a reprehensible stance in international affairs. The world 
stands sorely in need of moral leadership based on example, not on 
force. We cannot call others to adhere to international laws and 
covenants which we ourselves selectively disregard.

                    THE NEED FOR A NEW SOCIAL ETHIC

    Today, the literally tens of millions of religious believers in 
China--including a growing number of young scholars, who have taken a 
keen interest in Christianity as a life philosophy and as an ethical 
and moral code, may succeed in re-imagining and re-creating a new Civil 
Society in China that can appropriately take up its rightful role in 
the global family of nations. These challenges toward which Christians 
in China need to direct their energies and resources, also suggest to 
those of us who are concerned about China's future and our own future 
in the global community, possibilities of reaching out in solidarity, 
supporting all those in China who are struggling to rise to the 
occasion and seize the opportunity to minister to the social well-being 
of their own people--especially the poor and marginalized.
    We all need to get beyond the headlines and sound bytes of the 
media and the overly simplistic approaches of some agencies in the 
USA--with their own agendas for China. The lived reality for Chinese 
people today is a far cry from what is reported or extrapolated from 
given events or incidents in the Media. There are numerous ways to 
partner with Christians in China. There are actually many areas of 
service open to expatriates--both in the fields of education and social 
and medical work Both human and financial resources are in demand for 
supportive services in Church sponsored social and medical 
ministries,--as well as directly with such programs in the public 
domain. HIV/AIDs is a rampant and growing problem in China--one vastly 
under acknowledged by the authorities. Slowly government health 
ministries are starting to welcome training and assistance to prepare 
and equip themselves to deal with this pending tragedy of already 
crisis proportions.

                       RESPONSES FROM THE CHURCH

    Regarding the government's response to initiatives from the 
Catholic Church in the field of Social Service, I have included in the 
packet of materials submitted, a brief memo--addressing some of the 
concerns which may be on the minds of the committee members. [cf. Memo 
of the Director, Xian CSSC]. In sum, it notes that as long as local 
governmental policies, procedures, and requirements are carefully 
complied with, activities and programs of civil service and for the 
social welfare of the people are welcomed and appreciated by the 
Chinese authorities.
    In so far as there is coordination and/or cooperation with 
international contacts in these fields, there is usually closer 
supervision--especially regarding the role of foreign nationals in the 
projects and regarding use of funds received. Not surprisingly--when 
there are amenable relations between the authorities on both sides 
(Church and government) trust is established and things work smoothly.

  TWO AREAS AFFECTING THE INTEGRITY OF THE CHURCH-SPONSORED PROGRAMS:

    1. Services provided must be offered on objective and unbiased 
terms: [i.e. not as a cover for evangelization or other subjective 
interests] and be without inappropriate requirements or expectations of 
any reciprocity to the advantage of the service provider.
    2. Social Service projects, especially medical services (hospitals 
and clinics) must comply with standards established by local health 
authorities: e.g. qualifications of professional staff, use of 
appropriate procedures and medicines, and adherence to acceptable 
standards of care, and so forth. Increasingly, especially in rural 
areas, some small church-run clinics have been closed due to failure to 
meet these standards.
    [Interview with Dr. WU Gui Xian, Hebei/XianXian Catholic Diocese 
MBA Cand. In Hospital Administration at Pace Univ./NYC]
    Developments in the Not-for-Profit and Non-Governmental Social 
Services Sector in China--as an integral part of the emergence of a 
Civil Society--have come a long way in barely a quarter of a century. 
This view is further validated if we acknowledge the absence of any 
semblance of a Civic Society in either the Dynastic or the Republican 
Eras, nor after the establishment of the Peoples' Republic in 1949. 
Therefore, little if any foundation exists upon which a Civic Society 
in China might be built--neither in China's past politico-social 
structures nor in the socio-cultural traditions of the Chinese people. 
Rather than decrying what is not yet, we might more generously assess 
all that has been accomplished by our Chinese brothers and sisters in 
initiating relevant works of social and civil service in their 
communities.

                      CHALLENGES IN THE NEAR TERM

    China's income disparity is worse than that of other Asian 
countries like South Korea, Japan and India--this despite the fact that 
under Mao (between 1950 and 1980) China had achieved one of the most 
even distributions of wealth--with all boats rising together. For 
several years running, China has maintain economic growth at about 9 
percent per annum. This has brought a level of wealth to urbanites and 
younger elites never dreamed of before, reflected in their choice 
housing, style of clothing, and tastes in food; as well as in less 
material ways such as education, entertainment and travel.
    The dark side of China's new wealth really is a widening disparity 
between rich and poor continuing unabated. Luxury gated communities are 
surrounded by poorer shanty towns filled with illegal migrant workers 
and displaced citizens scraping by on US$50 per month. Millions of 
Chinese are left unemployed from their abandoned unprofitable state-
owned enterprises (SOEs). Rural poor continue to struggle to provide 
for their families with little more than a sixth grade education. 
Prostitution in cities has become one of the few ways that women with 
little or no education can eke out a living.
    By contrast, some 70 percent of China's peoples still live in rural 
villages, where they are less touched by modern life and increasingly 
dependent on wealth trickling down from the cities. The average income 
inland is said to be only a third of that on the coast. This year the 
threat of 4-5 percent inflation has prompted authorities to try to damp 
down the economy, but only enough not to bring on a crash.
    So eminent an expert in such matters as the President of the World 
Bank--at a Conference on Poverty Reduction last in May in Shanghai, 
warned China that the growing gap between the wealthy and progressive 
coastal provinces and the still generally poor interior is grist for 
widespread social instability--and threatens the undoing of all the 
social and material progress of this past decade. It would be hard to 
find a more dire and ominous threat to lay in the lap of China's 
leadership!
    There is a great irony in the fact that in the international market 
place, many concerns are expressed about China's overheated economy. 
Frequently, many US corporations and workers, especially those in 
unions, express fears and frustration with the impact of China's 
economic growth, not only on the global economy, but on the US domestic 
economy. We ought not to miss the point however, that the fate of 
hundreds of millions of ordinary working poor in China is also at 
issue. As cited in an article in the NY Times many credit China's vast 
numbers of migrant workers with that country's astonishing and 
prolonged economic growth. As they increasingly flood into urban 
regions, migrant workers add value to the economy. [NYT 
9-12-04 Week in Review Pg. 5]. That is the good news. At the same time, 
these millions of migrant workers also add a tremendous burden of 
demands for social services upon the governmental sector--just when 
such social safety nets as had 
existed during the era of the centrally managed economy have been 
shredded to pieces.
    The difficulty facing China's leaders is to provide these millions 
of migrant workers, and by extension their desperately poor families 
and dependents, with affordable housing, access to schooling, health 
care, legal protections and so forth. Obviously, social service 
agencies and organizations have a major and crucial role to play in 
helping to construct the social safety net required to meet these 
demands. As in other developing countries--and even in our own 
country--government turns to the voluntary and religious sector for 
assistance. Not unexpectedly, as is our common experience, governmental 
vis-a-vis non-governmental sector relationships are never as smooth and 
unambiguous as the situation would seem to warrant.
    In sum, China is undergoing unparalleled economic growth bringing 
with it consequences that could lead to depression and disaster. The 
values of a structured socialism have receded and the differences 
between rich and poor, whether one speaks of individuals or of sectors 
of society, have surged. Westerners generally are concerned with 
individuals' rights, whereas traditionally, these have been limited in 
China, where the perceived welfare of the group--family, village, or 
society in general--has always had priority. Today, however, many 
observers generally agree that people in general, and the single 
individual, have never had more freedom in China. A person can be an 
atheist or a believer. The thing he/she must not do is to participate 
individually or within a group in activities that may in any way be 
seen as a threat to the power of the state.

   ROLE OF NON-PROFIT (NPO) AND NON-GOVERNMENTAL (NGO) ORGANIZATIONS

    Long gone is the ``Iron Rice Bowl'' era (circa 1950-80), when ``Big 
Brother'' took care of social welfare needs. China today is tending 
toward what some term a ``small government, big community'' system. 
Traditionally, Chinese normally cared for their family members and 
those within their ``connections network'' (guanxi) One rarely helped 
an acquaintance, let alone a total stranger. Charity and volunteerism 
were unknown concepts up until the past decade.
    The NPO/NGO sector, including equivalent social and civil programs 
of the churches are increasingly necessary to bridging the socio-
economic gaps between haves and have-nots. China rapidly adopted the 
Western capitalist model without acknowledging the important 
underpinnings of capitalist society: those Judeo-Christian principles 
which provided a moral compass and safety net for the weak and 
disadvantaged. China's materialism--and we should be quick to 
acknowledge, western and American capitalist and materialist 
development, is increasingly based on a desire for profit in a moral 
vacuum, where anything goes. By contrast, corporate social 
responsibility (CSR) should rather play a key role in helping domestic 
and multinational for-profit businesses invest in China's social 
capital--and not just crassly exploit its vast means of production. In 
this context, China desperately needs to continue to develop its non-
profit sector and find ways to encourage citizens to broaden the 
horizons of their civic responsibilities.
    For Christian and other religious believers in China today, the 
current Chinese milieu may prove to be an opportune time to offer a re-
evaluation of Chinese society and to work toward the articulation of a 
new social ethic and a new morality. While the Constitution of the PRC 
is a finely worded document espousing many virtuous ideals, and while 
the Party continually devises idealistic slogans to galvanize the 
masses for the common good, China's movement toward a ``rule of law'' 
and a return to a more equitable distribution of material wealth system 
has a long way to go. Religiously motivated organizations can make an 
important contribution.
    China's government however, remains particularly sensitive to 
uncontrolled religious movements, although not without reason. In the 
nation's history politico-religious movements have more than once 
brought down a dynasty. Interestingly, many, if not most, Chinese 
Christians have no quarrel with the idea of government supervision of 
religion. What they object to is the abuse of this right of oversight. 
Nonetheless, while repression or harsh mistreatment of unregistered 
religious group leaders (Catholic, Protestant, Muslim, or Falun Gong) 
continues to take place, longtime observers find the situation 
improving. No longer ideologically anti-religious, many Chinese 
authorities increasingly see the social benefits of religion. But due 
to historical experiences, they are also sensitive, perhaps overly so, 
to the dangers real, imagined or imputed of unregulated (even simply 
unregistered) religious movements.

                               CONCLUSION

    I'd like to conclude my statement with an challenging reflection by 
Aldo Caliari, Coordinator of the Rethinking Bretton Woods Project at 
the Center of Concern here in Washington DC:
          ``The human rights system envisioned in the mid twentieth 
        century placed on nation-states the ultimate responsibility for 
        the human rights of individuals in their jurisdiction. The 
        system rested on the assumption that states have the power, 
        resources and policy space to fulfill such a mission. Nowadays, 
        while it is true that nation-states continue to bear this 
        responsibility, it is important to recognize the changes in the 
        global political economy that have taken place in the years 
        since. These changes have significantly undermined the ability 
        of nation-states, especially those within the developing world, 
        to fulfill their human rights responsibilities.''

    We ought not to ignore these realities, as we look to China to 
develop a viable Civil Society in which the private, volunteer sector, 
including those of religious motivation, will thrive. Difficult as it 
is for us as Americans, we need large doses of humility and respect to 
abide within the legal framework prescribed for the work of Christian 
ministry and witness in China today--all the while working and praying 
with the Christians in China for a more favorable time. Those of good 
will and courageous and creative imagination will already find multiple 
opportunities to serve. Together all of us can be empowered to work for 
global justice in economic and social relations; for integrity and 
harmony with all facets of Creation; and toward a world of Peace and 
prosperity for God's people everywhere.
    To return to Senator Hagel's admonition, cited at the opening of my 
statement, ``It is in our interest to work broadly and deeply with the 
Chinese Government (and the Chinese people) using all bridges and 
opportunities available to us . . .'' I urge this committee to call 
upon our government to ensure that its actions, both bi-laterally and 
through its behavior in international finance and trade institutions, 
respect and support the ability of China, and many other developing 
countries, to fulfill their commitments under international human 
rights law.
    Again, in Caliari words:

          ``A significant forward move would be for the US to 
        incorporate as a key dimension of its foreign policy the notion 
        that international organizations and 
        industrial countries are co-responsible for human rights 
        violations in developing countries on whose domestic policy 
        choices they have had (either by action or omission) an 
        influence.''

    David Lampton, President of the US-China Committee sums up my own 
counsel best:

          ``Americans must balance the impulse to treat China as it 
        is--with the foresight to recognize China for what it may 
        become.''
    National Interest [Fall 2003]

                                 <all>

</pre></body></html>
